CERTIFICATE OF COMPLIANCE
No.

MARTIN SHKRELI,
Petitioner,
-againstUNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT

As required by Supreme Court Rule 33.1(h), I Mark M. Baker certify that the
within petition for a writ of certiorari complies with the word limitation in Supreme
Court Rule 33.1(d) in that, according to the word count in the WordPerfect X9 wordprocessing system used to prepare such petition, there are 7363 words, excluding
the parts of the petition that are exempted.

/s/

Mark M. Baker
Mark M. Baker
Counsel of Record

